No. 20-5619

IN THE
SUPREME COURT OF THE UNITED STATES

JAMES ALLEN MmmRD,

Pet itioner,
V.

STATE OF NORTH CAROLINA,

Respondent.

PROOF OF SERVICE
I, John J. Korzen, counsel for Petitioner, do swear that on this 6th day of
November 2020, as required by Supreme Court Rule 29, I served the enclosed
REPLY BRIEF IN SUPPORT OF CERTIORARI on counsel for Respondent (the
only party required to be served) by depositing an envelope containing the above
documents in the United States mail properly addressed to them and with firstclass postage prepaid. The names and addresses of those served are:
Joseph L. Hyde
Daniel P. O’Brien
N.C. Department of Justice
P.O. Box 629
Raleigh, NC 27602
I further swear that on this 6th day of November 2020 I also served the same

documents on the same Counsel for Respondent by email addressed to
jhyde@ncdoj.gov and to dobrien@ncdoj.gov.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 6, 2020.

